CAPITAL CASE
No. 19-514

 

 

IN THE

Supreme Court of the United States

NIKKO A. JENKINS,
Petitioner,
v.
STATE OF NEBRASKA,
Respondent.

On Petition for a Writ of Certiorari
to the Supreme Court of Nebraska

REPLY BRIEF FOR PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,984 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 28, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
